No.________________
IN THE SUPREME COURT OF THE UNITED STATES
DAVID COPES,
PETITIONER,
- VS. UNITED STATES OF AMERICA,
RESPONDENT.
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Title 18, United States Code § 3006A(d)(6), Petitioner David Copes asks
leave to file the accompanying Petition for Writ of Certiorari to the United States Court of
Appeals for the Third Circuit without prepayment of fees or costs and to proceed in forma
pauperis.
Petitioner was represented by counsel appointed pursuant to Title 18, United States Code
§ 3006A in the Third Circuit Court of Appeals.
Respectfully submitted,
/s/ Brett G. Sweitzer
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
Counsel of Record
LEIGH M. SKIPPER
Chief Federal Defender
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Petitioner

